<html>
<title> - THE CONSTRUCTION OF THE UNITED STATES CAPITOL: RECOGNIZING THE CONTRIBUTIONS OF SLAVE LABOR</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
    THE CONSTRUCTION OF THE UNITED STATES CAPITOL: RECOGNIZING THE 
                      CONTRIBUTIONS OF SLAVE LABOR

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                HELD IN WASHINGTON, DC, NOVEMBER 7, 2007

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html


                    U.S. GOVERNMENT PRINTING OFFICE
41-186                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              VERNON J. EHLERS, Michigan
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
                 Will Plaster, Minority Staff Director


    THE CONSTRUCTION OF THE UNITED STATES CAPITOL: RECOGNIZING THE 
                      CONTRIBUTIONS OF SLAVE LABOR

                              ----------                              


                      WEDNESDAY, NOVEMBER 7, 2007

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 1:00 p.m., in Room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
(chairman of the committee) Presiding.
    Present: Representatives Brady, Capuano, Gonzalez, Davis of 
California, Davis of Alabama, Ehlers, Lungren, and McCarthy.
    Staff Present: Liz Birnbaum, Staff Director; Teri Morgan, 
Deputy Chief Counsel; Diana Rodriguez, Professional Staff; Matt 
Pinkus, Professional Staff/Parliamentarian; Kyle Anderson, 
Press Director; Kristin McCowan, Chief Legislative Clerk; 
Matthew DeFreitas, Staff Assistant; Fred Hay, Minority General 
Counsel; Bryan T. Dorsey, Minority Professional Staff; and 
Salley Collins, Minority Press Secretary.
    The Chairman. I would like to call the hearing on the 
United States Capitol Construction: Recognizing the 
Contribution of Slave Labor to order. And I would like to make 
my opening statement.
    The United States Capitol is a well-known symbol of freedom 
and liberty, yet the stories of America's slaves who built the 
symbol have been omitted from our history. Only a few documents 
remain to piece together the story. Whether it is Treasury 
Department pay slips at the National Archives or photos from 
the Architect of the Capitol's archives, we have evidence that 
slave laborers toiled in a harsh environment. Today we are here 
to shed some light to the true laborers, African American 
slaves.
    While the story of Philip Reid has been documented--he is 
best known to be the mastermind in casting and placing the 
Statue of Freedom atop the Capitol Dome--there are countless 
other slaves whose stories are untold. These stories are in the 
quarries of Stafford County, Virginia, where the most 
burdensome and back-breaking labor was cutting stone with 
pickaxes. Their stories are in the sawmills where pit and stone 
sawing were grueling jobs. These slave laborers have been lost 
to the ages, but their skills and craftsmanship endure.
    The next time you walk through the Nation's Capitol, pause 
for a moment and reflect on the hardships these men must have 
endured. Without modern-day equipment, equipped with only 
pickaxes and saws, think about the intensity and hardship these 
slave laborers faced. Take the time to marvel and appreciate 
the strenuous work that created the beautiful columns in 
National Statuary Hall. These quarried stones, bricks and 
mortar and hand-crafted carpentry continue as a living history 
of the slaves who fashioned them.
    During today's hearing, we will hear one panel comprised of 
the Slave Labor Task Force members, on their recommendations of 
how we move forward to secure a befitting memorial. The second 
panel of historians will provide background information and 
further insight into this untold chapter of American history.
    No piece of legislation or memorial stone will compensate 
for those who labored under slavery. A memorial, a 
commemorative plaque or exhibit will never right the wrongs of 
the past, but it could serve as a reminder of the story behind 
the significant contribution of an oppressed people. And it 
will serve for generations to come as a reminder that freedom 
and liberty are not always free.
    I would like to thank all of today's panelists for coming 
before us today, and I look forward to your testimony. And I 
now would like to recognize the Ranking Member Mr. Ehlers for 
his opening statement.
    [The statement of Mr. Brady follows:]

    [GRAPHIC] [TIFF OMITTED] T1186A.001
    
    [GRAPHIC] [TIFF OMITTED] T1186A.002
    
    Mr. Ehlers. Thank you, Mr. Chairman. And thank you for that 
beautiful statement you made. I thank you very much for 
convening today's hearing to discuss the use of slave labor in 
building the Capitol.
    It is easy to forget, as we craft legislation with a goal 
of preserving and protecting our freedom, that the very floors 
and walls that surround us were constructed by those who knew 
no liberty. The recognition of slaves as an important part of 
the fabric of our Nation's history is long overdue, and I am 
pleased that this committee is able to play a role in that 
effect.
    Recently I had the opportunity to climb the Capitol Dome 
with some friends, and, as most of you know, it is constructed 
of cast iron, incredibly heavy cast iron, and I couldn't 
imagine how that was done back 150 years ago. And how it was 
done, I know that horses and pulleys were used. But even so, it 
is incredible work to move all that cast iron in place and hang 
it appropriately and accurately along with the stone laying 
that you mentioned, Mr. Chairman. It is just an unimaginable 
amount of work done by people who, as I say, did not know 
liberty at that time.
    Our Nation still bears the scars of slavery, and we will 
never completely recover from its impact. Rather than try to 
forget what transpired, we must honor the sacrifice of those 
brave men and women who gave so much to our Nation even when 
they were told they had no worth of their own. My hope is that 
today's proceedings will be an important step in that process, 
and that we may work towards a fitting tribute to memorialize 
the contribution of slave labor in the construction of our 
Nation's Capitol.
    We are joined today by Congressman John Lewis. In addition 
to being the Chairman of the Slave Labor Task Force, 
Representative Lewis is a most distinguished pioneer in the 
civil rights movement, and we are honored and delighted that he 
could join us.
    Just recently he came to my hometown of Grand Rapids, 
Michigan, and spoke at the Ford Museum about his experiences. 
Incredibly eloquent, meaningful, and I and many in the audience 
sat there with tears streaming down our cheeks as we listened 
to his moving words.
    We also have with us another task force member, former 
Congressman J.C. Watts. He also caused tears to fall down my 
cheeks when he left the House of Representatives. He was such a 
great Congressman and contributed so much. But I also have to 
acknowledge that he placed his family above his own personal 
desires and our desires, and I commend you for that.
    Mr. Watts. Thank you.
    Mr. Ehlers. To each of the task force members, I thank you 
for the tremendous work that you have done in putting together 
this report. I am extremely pleased with the extensive and 
well-thought-out recommendations it contains, which include 
additional training for the Capitol Guide Service on this topic 
and an on-line resource for historians and scholars on the use 
of slave labor in the Capitol. I am impressed with your work. I 
look forward to receiving additional information today on your 
findings.
    Thank you very much, and I yield back the balance of my 
time.
    The Chairman. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1186A.003
    
    [GRAPHIC] [TIFF OMITTED] T1186A.004
    
    The Chairman. Anybody else have an opening statement?
    Hearing none, then, I would like to welcome our panelists, 
the Honorable John Lewis, United States House of 
Representatives, Georgia Fifth District; the Honorable Blanche 
Lincoln, United States Senator, Arkansas; the Honorable J.C. 
Watts, former Representative from Oklahoma. And I am not sure 
that I cried when you retired, but I am sorry--I do miss him; 
Dr. Bettye Gardner, professor associate for the study of 
African American life and history, Coppin University; Mr. 
Currie Ballard, task force member; and Ms. Sarah Davidson, task 
force member.
    I ask that the panelists summarize their statements within 
the initial 5 minutes allotted to the witnesses. Without 
objection, all written statements from witnesses will appear in 
the record of the hearing.
    We will start with Congressman Lewis, and then Senator 
Lincoln and move down the line.
    In Philadelphia we have a major newspaper, the Philadelphia 
Inquirer, and they do profiles, and in the profiles they ask 
certain people, what their likes & dislikes are, what they 
read, what is on the bed table, what their favorite movies are. 
And they also asked who are your heroes. And it was about 7, 8 
years ago, I was only here for a couple years, and I mentioned 
Mr. John Lewis as my hero. And I appreciate and thank you for 
participating today. And I would like to open with you, sir.

STATEMENT OF THE HON. JOHN LEWIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF GEORGIA

    Mr. Lewis. Thank you very much, Mr. Chairman, for those 
kind words.
    Chairman Brady and Ranking Member Ehlers, thank you for 
hosting me in Grand Rapids. And, other Members, thank you for 
your leadership and for calling this important hearing today.
    I would also like to take this opportunity to recognize 
other members of the Slave Labor Task Force at the table with 
me. As Chairman of the task force, I would like to thank each 
and every member for their hard work and dedication to bringing 
the truth to light about the use of slave labor in the building 
of the Capitol.
    Mr. Chairman, imagine building the Nation's Capitol with 
your own two hands. Imagine in Washington the oppressive 
summer.
    The Chairman. Excuse me, sir. I hate to interrupt you, but 
we want to hear you. Would you please just push that button to 
turn your microphone on?
    Mr. Lewis. Thank you very much, sir. I don't get a chance 
to testify too much.
    Many years ago when I was much younger, I had all my hair 
and a few pounds lighter, I testified in a few courts, but I 
don't get to testify on this side of the table.
    But, Mr. Chairman, imagine building the Nation's Capitol 
with your own two hands. Imagine in Washington oppressive 
summer heat, to toil under the sun without the help of a crane, 
a lift, without any of the modern tools that we have today; to 
fight through the bone-chilling winter and to shiver through 
the chilling days of January as you cut, chisel and pull 
massive stone out of a quarry to build the foundation, the base 
of this Nation's Capitol.
    This Capitol, this symbol of our democracy, was not built 
overnight. It was not built by machine. Laborers, including 
African American slaves, struggled to erect this massive 
building brick by brick, stone by stone. Mr. Chairman, thanks 
to the report by the Architect of the Capitol titled History of 
Slave Laborers in the Construction of the United States 
Capitol, we have now compiled and documented the work of 
African American slaves in the construction of the Capitol. We 
now know for certain that African American slaves were used to 
construct our Nation's Capitol. This building, from which we 
project the ideas of freedom, democracy, and, in my own mind, 
that idea, that concept of the beloved community, the 
interracial democracy, stands grounded in a foundation laid by 
slaves.
    We look back today not to open old wounds, but to ensure 
that we tell the story, the complete story, the whole story of 
those slaves so their toils are never forgotten. Slavery is a 
part of our Nation's history of which we are not proud; 
however, we should not run away or hide from it. The history of 
the Capitol, like the history of our Nation, should be 
complete.
    As thousands of visitors walk through our Nation's Capitol, 
they leave without knowing the true history of its 
construction. As visitors walk through the halls of the 
Nation's Capitol Building, this building, they do not see 
anything that tells the story of African American slaves who 
have built this magnificent building; no drawings, no murals, 
no statues, nothing. We cannot allow our citizens to leave 
without an appreciation for the efforts of slaves who helped 
build our ``Temple of Freedom.''
    The mandate of the Slave Labor Task Force is to study and 
recognize the contribution of enslaved African Americans in 
building the U.S. Capitol. Mr. Chairman, we have accomplished 
the first part of this mandate. We have a study, and we know 
the facts. Mr. Chairman, the time is now to commemorate what 
for too long has been unrecognized. It is time to commemorate 
the role of slave laborers in the construction of the Capitol. 
As Chairman of the Slave Labor Task Force, I am proud of the 
recommendation we are making today, and I ask that we will all 
work to ensure that these recommendations are implemented 
without delay.
    In conclusion, I will request that the study and 
recommendation be submitted in the record. And I thank the 
Chairman for his leadership and for holding this hearing. Thank 
you, Mr. Chairman and Mr. Ranking Member.
    The Chairman. Thank you, Mr. Lewis.
    [The statement of Mr. Lewis follows:]

    [GRAPHIC] [TIFF OMITTED] T1186A.005
    
    [GRAPHIC] [TIFF OMITTED] T1186A.006
    
    [GRAPHIC] [TIFF OMITTED] T1186A.007
    
    [The information follows:]
    The Chairman. I would also like to recognize Zach Wamp, 
Member of Congress, from the great State of Tennessee. Thank 
you.
    Senator. Senator Lincoln.

STATEMENT OF BLANCHE LINCOLN, A UNITED STATES SENATOR FROM THE 
                       STATE OF ARKANSAS

    Senator Lincoln. Thank you, Mr. Chairman. And to Chairman 
Brady and Ranking Member Ehlers, who I served with in Congress 
here in the House, I want to thank you all for holding this 
hearing today to examine what we all believe is a very 
important issue that has gone unrecognized for far too long.
    The eloquent statement of my friend and former colleague 
John Lewis, so grateful to his passion as well as, I think, the 
way he presents our responsibility here to make sure that we 
complete history, is very, very important. And I, too, was 
delighted to have Congressman Lewis in Arkansas as we dedicated 
Central High and the incredible place that it holds in history. 
And I think that as members of the task force, that is what we 
want to see happen here is to make sure that there is a place 
in history where these toils and certainly talents are 
recognized.
    Even though our majestic Capitol has served as a meeting 
place for both the House of Representatives and the United 
States Senate for nearly two centuries, it was only more 
recently that the public attention has been given to the fact 
that slave laborers were involved in constructing the building, 
which is the center of our legislative branch of government. 
And, of course, that was discovered through some old records 
that were actually in the Architect's office.
    As a member of the task force to study the contribution of 
slave laborers in the construction of the Capitol, I am honored 
and humbled to take part in this process to move forward the 
recommendations to honor and recognize slave laborers who were 
instrumental in constructing the building which is recognized 
as a symbol of freedom and democracy here at home and certainly 
around the world.
    Here the hopes and the dreams of the people of this Nation 
are presented through their elected Representatives in 
Congress. The concerns and priorities of the constituents we 
serve are voiced and debated. Here democracy sets the course 
for the future of our great Nation. And the slave laborers who 
helped build the Capitol are part of that story, and it is a 
story that we must tell.
    When we started this task force, one thing I wanted to make 
sure we did was to include a variety of viewpoints. In addition 
to including Members of Congress on the task force, I thought 
it was very important to include citizens who don't live and 
work in and around the Capitol on a regular basis. I wanted to 
ensure that we considered the vantage point of a visitor to the 
Capitol and what manner of recognition they thought would be 
effective in telling the story. In that spirit, I was very 
pleased that Curtis Sykes, a respected historian and native of 
North Little Rock, Arkansas, was appointed to serve on this 
panel. Sadly, Mr. Sykes passed away in September, but I am 
grateful he was able to contribute to the work of the task 
force before his passing.
    In addition to the many other accomplishments as an 
educator and community leader, Mr. Sykes was an original member 
of Arkansas' Black History Advisory Committee that was 
established in 1991 and faithfully and diligently served as its 
chairman from 1993 until his death. Mr. Sykes' recommendations 
on this task force were focused on wanting to ensure that as 
many citizens as possible be made aware of the contributions of 
enslaved African Americans in building the Capitol, whether 
they were visiting Washington or learning about the Capitol 
from afar. Mr. Sykes also thought it was important to put a 
human face on the experience of slaves who helped build the 
Capitol, and that visitors should be able to get a sense of who 
they were and what their work and daily life was like.
    I am so proud that Sarah Davidson, also a native of North 
Little Rock, is here, who has worked extensively both with Mr. 
Sykes and in the task force, and I am so grateful for her 
efforts.
    I think those are constructive recommendations, and I 
certainly believe the recommendations we are putting forward 
embody these goals today. As we move forward, I hope historians 
and researchers can incorporate genealogical and other records 
which will shed light on the enslaved individuals we are 
focusing on and their families so current and future 
generations can learn about these workers and better understand 
who they were and what they were facing.
    I also believe we should utilize technology to produce an 
interactive presentation that can be an effective teaching 
tool. In bringing this subject to light, I think it is helpful 
to engage as many senses as possible in terms of sight, sound 
and touch to actually bring people back to the circumstances 
that these slaves were in in the building of the Capitol, to 
bring them back to the time and the environment that the 
Capitol was built in. By incorporating interactive features on 
line or in an exhibit, it can help transport students of all 
ages to a place in time that might otherwise be difficult for 
them to envision.
    Finally, Mr. Chairman, I think it is important that we 
recognize and acknowledge this subject in the Capitol Building 
itself. That is the building slave laborers helped to 
construct, and I think that there should be a recognition 
within the building to reflect that. We know at least four 
places on the Senate side of the Capitol where slave labor 
contributed to the construction of that Capitol Building. Slave 
laborers contributed to completion of columns in the old Senate 
Chamber, and exposed original stonework we know of on the 
first, second and third floors on the Senate side in what is 
now known as the East Front Extension of the Capitol.
    I am also very supportive of focusing attention on this 
issue in the new Capitol Visitor Center and believe that will 
provide an opportunity to reach a large number of visitors who 
come from all over the world and our great country to see this 
beautiful building every year.
    In closing, Mr. Chairman, I want to thank you again for 
holding this hearing today, and I want to thank my colleagues 
on the task force. They have done a tremendous job. Congressman 
Lewis has been tireless as our leader. His staff has done a 
tremendous job. Congressman Watts, Dr. Gardner, and Mr. 
Ballard, and, of course, Sarah Davidson, all of those have 
worked hard with their efforts.
    I want to make a special expression of appreciation to the 
Clerk of the House, Lorraine Miller. She and her staff are 
helping us with this project and really making available for us 
the time and the energy of her staff as well as bringing us 
together in coming to conclusion. They have all been terrific 
to work with, and they should all be commended.
    It has been a real honor to work with this distinguished 
group, and I will always be grateful for that opportunity, and 
I look forward to what visitors will see as we move forward.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    [The statement of Senator Lincoln follows:] 

    [GRAPHIC] [TIFF OMITTED] T1186A.008
    
    [GRAPHIC] [TIFF OMITTED] T1186A.009
    
    The Chairman. Honorable J.C. Watts.

  STATEMENTS OF J.C. WATTS, FORMER REPRESENTATIVE IN CONGRESS 
    FROM THE STATE OF OKLAHOMA; BETTYE GARDNER, PROFESSOR, 
ASSOCIATION FOR THE STUDY OF AFRICAN AMERICAN LIFE AND HISTORY, 
COPPIN UNIVERSITY; CURRIE BALLARD, TASK FORCE MEMBER; AND SARAH 
                  DAVIDSON, TASK FORCE MEMBER

                    STATEMENT OF J.C. WATTS

    Mr. Watts. Thank you, Mr. Chairman.
    I want to say to Chairman Lewis and Senator Lincoln, as you 
all know, as Members of Congress and, of course, as a former 
Member of Congress, initiatives like this and efforts like this 
never work unless someone takes ownership in them and it 
becomes part of their DNA to see it through. And Congressman 
Lewis and Senator Lincoln have continued to chip away at this 
thing as current Members of the United States Congress, and we 
all are grateful for your efforts. Thank you very much.
    Chairman Brady, Ranking Member Ehlers and other members of 
the House Committee on Administration, I am honored to have the 
opportunity to speak to you today regarding the Slave Labor 
Task Force and to introduce you to several of my colleagues who 
have dedicated their efforts to securing the proper recognition 
for our brothers and sisters whose forced labor more than 200 
years ago built the United States Capitol.
    Abraham Lincoln once said, ``Fellow citizens, we cannot 
escape history.'' The era of slavery when one man can own his 
fellow man is no doubt an era that many would like to escape. 
But as Lincoln said, we cannot. It is documented in the very 
stones of the United States Capitol, a monument to the freedom 
of a Nation, constructed by the members of that Nation who 
cannot enjoy its gift of freedom.
    As someone who is committed to studying the past and 
applying its lessons to change the future, I believe it is 
important for our Nation and for our community to be educated 
on the contribution that the enslaved Africans made to the U.S. 
Capitol. To that end, in 2000, while I was a Member of the U.S. 
House of Representatives, I, along with my good friend John 
Lewis, and Senator Lincoln, and Senator Santorum at the time 
and others, created the Slave Labor Task Force to study the 
contribution of enslaved African Americans in building the U.S. 
Capitol and to make recommendations of the Congress concerning 
appropriate recognition of these contributions.
    The task force was officially established on October 24, 
2000, through a congressional resolution. Since that time many 
talented men and women have lent their efforts to the work of 
the task force. And I would particularly like to thank again 
Senator Lincoln of Arkansas; The Clerk of the House Lorraine 
Miller; Congressman Lewis; and historical experts Currie 
Ballard, Bettye Gardner and Sarah Davidson, who will be 
speaking in a few minutes.
    To complete the first part of its mission, the Slave Labor 
Task Force directed the Architect of the Capitol to create a 
documented history of the slave labor that contributed to the 
Capitol's construction. This history brought to light the full 
scope of their labor. From 1795 to 1801, and likely beyond this 
period, the builders of the Capitol rented the labor of 
Africans forced into slavery by their owners. These borrowed 
workers completed the hardest task, including quarrying stone 
and casting bricks by hand, hauling stone from the quarry to 
the work site, and felling trees. Today the work of these 
individuals is documented most clearly in the walls on the 
original East Front of the Capitol. This stone was quarried and 
transported by African American slave laborers more than 200 
years ago. Their work also deserves the credit for the columns 
in Statuary Hall and the Old Senate Chamber.
    Sadly, we know the names and stories of only two of the 
African American slave laborers who worked on the Capitol. 
Nevertheless, their stories give us a glimpse into the reality 
of their contributions, and give us a human context into which 
we cast our recognition of the total efforts made by the 
enslaved laborers. The first of these two individuals was 
George Pointer. Mr. Pointer was an enslaved man who purchased 
his freedom and later captained a boat that carried stone to 
the Capitol construction site. The second individual was Philip 
Reid. Mr. Reid was a slave laborer whose contribution to the 
construction of the Capitol included assisting in casting the 
statue ``Freedom.'' Later in this hearing, historian Felicia 
Bell will tell Philip Reid's story.
    The Slave Labor Task Force has done an outstanding job in 
documenting the history of the slave laborers who contributed 
to the U.S. Capitol construction. In 2007, the task force began 
developing recommendations to fulfill the second of its 
responsibilities. After extensive review of legislation and 
documentation, as well as consultation with history and museum 
studies experts, the task force is pleased to present to you 
today its recommendations for the most appropriate means of 
honoring the African Americans who made such an important 
contribution to the United States.
    In presenting these recommendations, we as a task force, 
are pleased to have Dr. Bettye Gardner, Sarah Jean Davidson and 
Currie Ballard to testify on the importance of preserving this 
significant piece of history. Dr. Bettye Gardner is an 
accomplished professor of history whose work has raised 
awareness of the contributions of the African American 
community throughout history. She received a bachelor's and 
master's degree from Howard University and a Ph.D. from George 
Washington University. She has been honored for her work with 
numerous awards, including the Outstanding Educator Award in 
2005 and the Bethune Service Award in 2006.
    Sarah Jean Davidson has been a force for positive change 
throughout her life. At age 15 Ms. Davidson organized the North 
Little Rock, Arkansas, NAACP Youth Council and served as its 
president. The council was responsible for the change in 
segregation policies at public facilities in North Little Rock. 
Ms. Davidson has worked tirelessly to preserve African American 
history in North Little Rock, documenting and preserving 
history so others have the opportunity to learn from them. She 
received a bachelor's degree from Howard University as well as 
a master's degree in education from Catholic University.
    And last, Mr. Chairman, Currie Ballard has worked 
throughout his career to preserve a record of African American 
accomplishment, serving on the Presidential commission 
responsible for the African American Museum here in Washington, 
D.C. He also served as the historian resident at Langston 
University in Oklahoma for 12 years. We are all likely familiar 
with Currie's extended family. He is a descendent of the two 
African American slaves who wrote the song ``Swing Low, Sweet 
Chariot.''
    In conclusion, I would like to thank the committee once 
again for the opportunity you have given the task force to 
share with you the history of the African American contribution 
to the U.S. Capitol and our recommendations for recognizing 
their labor. After 200 years it is time for America to 
recognize these individuals who contributed to our Nation's 
symbols of freedom while never having the opportunity to 
cherish it themselves. Their history is a part of all our 
history, and we all can learn from their contribution.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Congressman Watts.
    [The statement of Mr. Watts follows:]

    [GRAPHIC] [TIFF OMITTED] T1186A.010
    
    [GRAPHIC] [TIFF OMITTED] T1186A.011
    
    [GRAPHIC] [TIFF OMITTED] T1186A.012
    
    [GRAPHIC] [TIFF OMITTED] T1186A.013
    
    [GRAPHIC] [TIFF OMITTED] T1186A.014
    
    The Chairman. Dr. Gardner.

                  STATEMENT OF BETTYE GARDNER

    Ms. Gardner. Thank you, Mr. Chairman, members of the 
committee.
    During the 200th anniversary of the building of the U.S. 
Capitol, national attention was focused on the role that slaves 
played in its construction. A task force was established in May 
of 2005 to determine ways to recognize the tremendous 
contributions that slave laborers made in the construction of 
the Capitol.
    The writer Alex Haley commented that history has been 
recorded by the winners, stored by the winners and written by 
the winners. As a result, the American story is generally told 
in a way that enhances and dignifies some while omitting 
others. American history cannot be understood without African 
American history, and so if we are to understand the role which 
slavery played in the building of this Nation, then this is an 
excellent opportunity for the task force to broaden the 
conversation on slavery and race.
    The Members of Congress have acknowledged the 
contradictions inherent in the founding of our Nation. Hence, 
the task force must help to center the African American 
experience squarely in the American experience, providing an 
alternative viewpoint that both illustrates and contradicts the 
promise of America.
    By recognizing the slaves who built the Capitol, we shine 
the light of historical truth on the institution of slavery and 
the racism that justified it. Like so many aspects of the 
African American story that have remained on the back pages of 
our historical consciousness, the story of the slaves who built 
the Capitol must certainly be told here.
    Once Washington was selected as the Capital City, slavery 
became an accepted part of the new Capitol. By 1800, the 
population was almost one-quarter black, both slave and free. 
It is in this context that the founding of the new Nation must 
be seen and our Founding Fathers must be judged.
    By whatever devices we employ, both the image and the irony 
of African slaves constructing the most enduring and formidable 
symbol of democracy in the world must be at the center of our 
consciousness. Up to now, both the image and the irony have 
been left out.
    Carter G. Woodson, the founder of the African American 
Historical Association, once said that while we should not 
underestimate the achievements of our Nation's greatest 
architects, builders and industrialists, we should also give 
credit to those slaves who so largely supplied the demand for 
labor. Our history omits both their mention and their record. 
Our historical images have excluded their depiction. Our 
consciousness involves only certain well-known names. But the 
numbers and the physicality of black men slaving in this city, 
the size of this very place and the permanence of it, and the 
time and lives it took black men to make it can no longer be 
ignored.
    These men, enslaved and building this monument to freedom 
and the rights of men, have become the ones to tell us who we 
are, and in so doing, they have given us not just the symbols 
of democracy, but the thing itself. However, it is not enough 
that only those visitors to this building know the story. What 
we must do now is make certain that every venue that carries 
our history, also carries that story. This is your moment to do 
that.
    Thank you.
    The Chairman. Thank you, Doctor.
    [The statement of Ms. Gardner follows:]

    [GRAPHIC] [TIFF OMITTED] T1186A.015
    
    [GRAPHIC] [TIFF OMITTED] T1186A.016
    
    [GRAPHIC] [TIFF OMITTED] T1186A.017
    
    [GRAPHIC] [TIFF OMITTED] T1186A.018
    
    The Chairman. Mr. Ballard.

                  STATEMENT OF CURRIE BALLARD

    Mr. Ballard. Thank you, Mr. Chairman. The following 
recommendations were voted unanimously by the Commission:
    Commemorative plaques and building stones quarried by slave 
labor placed in or near the Capitol Visitor Center and/or the 
U.S. Capitol.
    Pamphlets on the history of slave labor in the Capitol, 
focusing particularly on the kind of work assigned to the 
slaves.
    Exhibition in the U.S. Capitol on the experience of the 
19th century African Americans, both as slave laborers and as 
Members of Congress.
    Educational informational brochures highlighting individual 
19th century African Americans in the Capitol, slave laborers, 
Members of Congress and staff members.
    On-line exhibit that creates a virtual version of the 
Capitol exhibition, with the addition of educational materials 
for students and teachers.
    Training of the Capitol Guide Service on interpreting the 
experience of African Americans as slave laborers and Members.
    On-line publication of the Task Force Report on the History 
of Slave Laborers at the Capitol.
    Black Americans in Congress, scheduled to be published by 
the House of Representatives in 2008, providing extensive 
materials and experiences of African Americans in the Capitol, 
and be accompanied by a Web site and educational materials.
    Designation of the Great Hall of the Capitol Visitor Center 
as Emancipation Hall.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Ballard.
    [The statement of Mr. Ballard follows:]

    [GRAPHIC] [TIFF OMITTED] T1186A.019
    
    [GRAPHIC] [TIFF OMITTED] T1186A.020
    
    The Chairman. Ms. Davidson.

                  STATEMENT OF SARAH DAVIDSON

    Ms. Davidson. Mr. Chairman, in the interest of time, I 
deferred my testimony to my distinguished colleagues. However, 
I did submit written testimony which will be a part of the 
official record. Thank you.
    The Chairman. Thank you.
    [The statement of Ms. Davidson follows:]

    [GRAPHIC] [TIFF OMITTED] T1186A.021
    
    [GRAPHIC] [TIFF OMITTED] T1186A.022
    
    [GRAPHIC] [TIFF OMITTED] T1186A.023
    
    The Chairman. We will now entertain questions. I just have 
a few quick questions, and I think that Mr. Ballard may have 
already answered them.
    I don't want to see just a plaque on a stone. I would 
rather see the story told in whatever way it could be told, 
maybe attach it to some benches that are cut out of the quarry 
stone mined by the slaves that visitors can sit and see and 
feel and touch to appreciate the story of those who labored to 
build the building. That was kind of my question. But I think 
that you answered it in some of the things that you are doing. 
I appreciate that.
    After today's hearing, what is the next step? Where do we 
go from here? What has to happen? What do we do? Do you need 
any legislation? Do you think you need legislation to be able 
to further what your end result may be?
    Mr. Lewis. Mr. Chairman, as directed by our mandate, we 
represent the work of the task force, the study and the 
recommendation to the Speaker and the president pro tem.
    Last night at our conclusion meeting, I must tell you, Mr. 
Chairman, we had seven members of the Appropriations Committee 
there, and we are going to need a sizable appropriation to do 
the work that we must do, and the Committee on House 
Administration can be very helpful and supportive in seeing 
that we get the necessary resources to carry out the 
recommendations.
    The Chairman. Thank you.
    Mr. Lewis. The Chair of the full Committee on House 
Appropriations and Mr. Wamp, I think, is here. The Ranking 
Member has been very helpful and very supportive.
    The Chairman. They were the right people to go to for your 
appropriations, and we will try to hold their feet to the fire 
for that. Thank you.
    Mr. Ehlers, any questions?
    Mr. Ehlers. Thank you, Mr. Chairman.
    As you are well aware, we are developing a new Smithsonian 
National Museum of African American History, and I am sure a 
number of you have been involved in that. How do you see the 
correlation between that museum and what we are proposing to do 
in the Capitol Visitor Center? And do you imagine interchanging 
displays and artifacts between the two? Are you planning one 
set of things for one and one for the other?
    Mr. Lewis. Well, I believe, Mr. Chairman, Mr. Ranking 
Member and other Members, Lonnie Bunch, who is the Director of 
the new museum, will be testifying later, and we may just let 
him speak.
    Mr. Ehlers. Okay. So your Commission hasn't come up with 
any recommendations on that or correlated with them at all?
    Senator Lincoln. Well, Mr. Chairman, I think one of the 
things that we could say is that the work that they are doing 
would be very complementary because the experience there in 
terms of learning more about African American history leads to 
what the Chairman mentioned, and that is making sure that 
people begin to really understand the history, and hopefully 
through both that effort there and what we are doing here, 
there will be a real interactive circumstance where people will 
be able to maybe experience the sounds or the sights and the 
feel. I hope that will be there particularly for schoolchildren 
as well as a learning tool of--as Congressman Lewis mentioned, 
I mean, these laborers used their hands, they didn't use the 
cranes that children see today when they drive down, the 
construction that goes on. They can learn basic physics and the 
simple machines that were used, whether it was pulleys or 
levers or a whole host of different things.
    So I think that there will be a complement between the two, 
and an opportunity to really provide good education.
    Mr. Watts. And I think, Congressman, I think most of the 
recommendations that have been made by the task force are 
things that will be done in and around the Capitol complex. So 
you could actually have people that would show up at the 
Capitol that may not go to the museum, but could get a hands-on 
feel and a good feel and good flavor for what the task force 
has put together in terms of recognizing the slave labor.
    There will obviously be ties. As Congressman Lewis said, 
you know, Director Bunch can speak to that. But, you know, if 
no one ever went to the museum, in spite of the fact that you 
will have some links, you can have links to the museum, you can 
have ties to the museum in terms of the labor task force and 
the African American Museum, but if people didn't go to the 
museum and they went to the Capitol, they could still get a 
good flavor of what the recommendations are today, or they 
could get a flavor of the slave labor based on the 
recommendations that have been made by the task force.
    Mr. Ehlers. Well, I certainly support your effort to have 
these on display in the Visitor Center, but it is just 
unfortunate we didn't think of all this 5 years ago. It would 
have been easier but I am sure we can work it out somehow.
    Mr. Watts. We thought about it 5 years ago. We just didn't 
complete it 5 years ago.
    Mr. Ehlers. That seems to be the story of our lives here in 
Congress.
    One other thing. One recommendation you make, I believe, is 
that the Capitol tour guides be trained in this information. 
Did you come up with any specific suggestions on what topics 
they should be trained in, or is this something you want us to 
work out?
    Mr. Watts. I think, Congressman, in terms of tour guides 
being trained, I think the people that give tours through the 
Capitol today, I mean, they have got a pretty good 
understanding of what has happened in the Capitol and the 
history of it. You know, I see this being pretty minor in 
adding this component to the history of the Capitol as they 
walk people through it.
    When I was in Congress, you know, I had staff and interns 
that--you know, that would guide tours and had a tremendous 
history of the Capitol. So I think that would be a pretty 
smooth transition to add this component to it. But that is 
done--I don't know who handles that, this will just be a new 
component to that tool.
    Senator Lincoln. I think it is through the Office of the 
Architect. I am not sure. But I think the idea is that we just 
want to make sure they have a thorough background of the 
history themselves so that when they take tours through the 
Capitol and through the Visitor Center, that they will have 
that information thoroughly prepared.
    Mr. Ehlers. I guess what I am driving at is not so much 
book knowledge, but the sensitivity to be able to translate 
this to the people with heart. Maybe they have to go through 
Congressman Lewis's Selma march as part of their training and 
really understand what it meant to be a slave and to be forced 
to build this citadel of liberty without experiencing it 
themselves. I mean, that has to come through somehow.
    My time has expired. I yield back. Thank you.
    The Chairman. Thank you.
    Mr. Capuano.
    Mr. Capuano. Thank you, Mr. Chairman.
    First of all, I want to congratulate you. I think this is 
great work. It is difficult work, and I think what Mr. Watts 
said earlier was exactly right. Without somebody taking 
ownership of these things, they just kind of wither and die on 
the vine. And the fact that this Board has not, I think, 
deserves our congratulations and our thanks.
    I also want to say two things. Number one is I guarantee 
you this committee does know who gives tours over the Capitol, 
over the CVC, and who will continue to give tours over the 
Capitol and the CVC, and they should all be educated 
appropriately on this and other matters as well.
    When I listen to testimony about the history of slavery, 
lots of things come to mind, obviously. Number one is it is 
always, I think, one of this country's great shames. We came to 
the movement to get rid of slavery late in world history. It 
wasn't unique to this country, but we were one of the last 
major countries to get rid of it, and I think it is important 
that we acknowledge that. And it is important that we remember 
it.
    I also think it is critically important to learn from 
history, and I think it is overseen by too many people that 
there is slavery in this world today, actual honest-to-God 
buying and selling of human beings going on right now as we 
speak.
    Today we just heard some words from the President of 
France, and they were all wonderful, and that was very moving. 
This afternoon I had a meeting with Salva Kiir, who is the 
President of Southern Sudan, and in that conflict in Sudan, 
slavery has been a significant component of it. And I think if 
this world stayed silent on slavery anywhere in the world, not 
just in America--again, our history is important, but if we 
don't learn from our history and just learn not just the facts, 
but also the outrage that we should all feel from it, and then 
express that outrage and enlighten and, if necessary, force the 
rest of the world to do the right thing, I think we have done 
nothing other than simply read a book.
    And it is not just slavery. Many places in this world also 
participate in indentured servitude, in de facto slavery. They 
may not buy and sell people, but they take their passports so 
they can't leave and keep them locked up. And I think it is 
critically important that as we discuss history, which is 
important, and recognize history and embrace history and learn 
from it, that we also make sure that we speak out through the 
lessons we have learned and to continue to fight until every 
single person in this world is free from the threat and the 
fear of the denigration that slavery brings to them.
    And I again want to thank you for your work on this, and I 
know that we will work together. I know, obviously, several 
members of the panel. I know you work just as hard on doing 
things to make sure that these thoughts and these lessons, are 
not just put on a plaque, but they are also lived every single 
day, and that we understand the real problems of humanity that 
we ourselves as human beings have both imposed and allow others 
to impose. So again, thank you for your work.
    The Chairman. Thank you, Mr. Capuano.
    Mr. Lungren.
    Mr. Lungren. Thank you, Mr. Chairman.
    Twenty-seven years ago, I served as the Vice Chair of the 
commission to study the treatment of Japanese nationals and 
Japanese Americans during World War II. And one of the 
challenges we had was to both look at the history of our Nation 
in that regard, because that was a stain on our country's 
history, to try and establish what the historical facts were. 
But also I thought it was extremely important for us to create 
educational tools for the future so that we could continue to 
look at that experience, not to beat ourselves on the back but 
to try and take from that experience what the lessons were and 
make it real to particularly students today but all of us today 
so that we could hopefully avoid similar problems in the 
future.
    Because it is easy to look back and say, we never would 
have done that; those people were different. The question is, 
how do you look back and say what is it there that caused them 
to do that? Why did that exist and how do we fight against 
those things today?
    So my question would be this: In terms of the content of 
the plaques, in terms of the pamphlets on slave labor, in terms 
of the brochure cards, in terms--the training, has any thought 
gone into how do we extract the lessons from that time that 
might be applicable to now? Not just the ability to look back 
at history and acknowledge history and understand, but how do 
we take lessons from that, number one, and how do we connect to 
the triumph of the civil rights revolution which shook this 
Nation and caused us--well, also the blood and sweat that--and 
sacrifice that went through the Civil War, but then all the way 
up to the civil rights revolution.
    I know you can't do all of that, and I don't want to give 
you a charge that is more than what this is for. But how does 
the recommendations that you make fit into that?
    Mr. Lewis. It is my feeling and belief that with the 
visitor center, the African American museum and what we are 
doing as a task force, they all tend to come together. The 
literature, the material will tell us the distance we have 
come, the progress we have made and help to educate, sensitize 
and bring us to the point that we will never, ever repeat these 
blunders again.
    And Senator Brownback used to talk about, Congressman 
Watts, the whole idea maybe this would help lead to 
reconciliation. Teach us, yes. We are, too, for teaching, for 
future generations but also to build a greater sense of 
community and to create a more perfect union.
    Mr. Watts. And, Congressman, we don't submit today that we 
have found the perfect answers for how all this should be laid 
out. But I think we are in a stage of this that those type of 
things can be thought through in a way that, you know, we 
thought through in a way that we do it the right way. And I 
think that the recommendations that have been made by the task 
force, I think we cheat ourselves if we don't point to 
Birmingham, Alabama, and the civil rights museum there by way 
of the African American museum here or the Slave Labor Task 
Force and what is around the Capitol; and I think we have got a 
chance to tie it into Memphis, Tennessee, and the civil rights 
museum there; Cincinnati, Ohio, the underground railroad. I 
mean, this could be a very comprehensive effort--that the 
pamphlets and the plaques and all the things in the Capitol are 
just a component.
    But, again, I would not submit to you today that we have 
thought through word-by-word how it should be, wordsmith. But 
these are the recommendations that have been made.
    Senator Lincoln. Congressman, I think one of the things we 
have all agreed on here is that we want it to be engaging. And 
one of the ways that we would also like to make it available to 
schoolchildren, perhaps, that can't visit Washington is through 
an interactive Web version. And through that, hopefully, there 
will be links to the civil rights museum in Memphis and to the 
other places where we can really re-emphasize a lot of the 
struggle that occurred and how important it is, you know, to 
learn those struggles and to learn them in a way that you feel 
and you see and you better understand what those struggles 
were. And I think through the interactive Web piece, you will 
see a great ability to be able to do that, particularly for 
schoolchildren. But, for children and adults, it will be a 
great availability.
    Mr. Watts. Congressman, if I can just add one more thing; 
and I hope that I am not speaking out of turn here. I don't 
think what the task force--what they have recommended, that 
they are trying necessarily to tell the comprehensive story of 
slavery and how we should not repeat it. But their challenge 
was to recognize the contribution that slave labor made to 
building the Capitol. And I think, in that, it obviously points 
to a lot of different things. It can take you into a lot of 
different arenas from Birmingham to Memphis to Selma to the 
African American museum that Mr. Bunch is heading up. But this, 
again, is a component that the task force addressed concerning 
the slave labor, the contribution that labor made to building 
the Capitol.
    Ms. Davidson. Mr. Chairman, just a few minutes. I am a 
product of the civil rights movement in Arkansas. The way I see 
it, the memorial to the slaves will show a connection for 
African Americans and others who do not feel that they are 
connected to the institutions that stand for America like the 
U.S. Capitol. So, if there is a memorial to the slaves, you can 
say we are connected to the Capitol. Our ancestors--I am the 
daughter of slaves, a great, great granddaughter of slaves. We 
can now say our ancestors helped build the Capitol. So when we 
look at it, it is not your building--the majority--it is our 
building because we were a part of it. So I think in that 
respect it creates a connection to our history.
    It will be a connection not just for African Americans but 
also for immigrants that come here from all around the world 
who don't feel a part of America. Once they start feeling we 
are connected, then we become one. We are more alike than we 
are different. And I think that is one of the things the 
memorial will show.
    The Chairman. Thank you.
    Mr. Gonzalez.
    Mr. Gonzalez. Thank you very much, Mr. Chairman.
    I thank the witnesses for their testimony, and I am going 
to piggyback pretty much on what Congressman Capuano and 
Congressman Lungren were pointing out.
    But it is also a statement from former Congressman Watts; 
and I think you stated something about the past, the history of 
this particular lesson, applying it to change the future so 
that it is what Ms. Davidson points out, people taking 
ownership of this American experience and such. And I think 
that is very, very important.
    My question goes to--and I know that we are not going to 
settle this today, because we are all in agreement that we are 
going to move forward with what you are proposing and the next 
panel may better address my question. But when people come 
through and they see this and they recognize that it was slave 
labor that was responsible in large measure for the building of 
our Capitol, I would like that somehow there is a reason for 
telling this story.
    Why are we telling this story? I think it needs to be 
recognized and I think, as Ms. Davidson pointed out, an 
important aspect of it. But why do we tell these stories? And I 
would love somehow, some direction; that there is a lesson to 
be learned there and that this Nation is still a work in 
progress and that we are still trying to form this more perfect 
union and so on. But what does it mean? I think I want to take 
it up with--not to get real, real political, but it is about 
slavery, and it is not about slavery.
    And Mike brought out that we have slavery today. But as far 
as the American experience, this is not about slavery in 
America today. But it is, in essence, the discriminatory 
practices that exist in America today and so on. In other 
words, we are not through that.
    And I am not going to politicize this whole thing. But it 
would be a very interesting thing to say, think in terms of the 
Capitol where it is situated and today that the residents of 
the District of Columbia don't have a voting representative on 
the House floor. I mean, these are the lessons that I would 
like to somehow get people to start thinking in those terms. 
So----
    And I think, J.C., you said, well, we may not be able to 
get that far today. But do you think there will be a component 
as to why we tell this story, why it has a modern-day 
application and a future application?
    Mr. Watts. Well, as Ms. Davidson said, I think it points to 
the fact that Americans--red, yellow, brown, black and white--
made a contribution to trying to perfect this union. I don't--
and I agree with you on--concerning D.C. voting rights. I think 
it is a travesty, and I think that is a part of perfecting our 
union in my opinion that people of the District should have the 
right, that their representative should have a vote on the 
floor of the United States House of Representatives.
    So, again, we are not going to perfect the union in this 
one effort, but I think again it points to, I think, a part of 
our history that we can learn from, we can take pride in, that 
school kids can come and know that the people who look like you 
made a contribution, that people who look like me made a 
contribution, people that look like Blanche, they made a 
contribution.
    So I think we have got a chance to shape this and form this 
in a way that it could be very, very significant along with the 
African American museum, I think the resources that we already 
have available to us that we mentioned, Birmingham, Cincinnati, 
and so forth. So I see your point, and I think it is a valid 
point, but we have to continue to work on that.
    Mr. Lewis. Congressman, could I--it is good in itself to 
tell the story for history's sake. But as a Nation and as a 
people, we are still evolving. We are not there yet. We are in 
the process of becoming.
    And I often think when I go to the Capitol, 44 years ago, 
when I came here with Martin Luther King, Jr., and stood on the 
steps of the Lincoln Memorial, I was looking up at the Capitol. 
That was 44 years ago. Now I can look down from the Capitol on 
the third floor of my office and look at the steps of the 
Lincoln Memorial and the Washington Monument. That tells 
somehow the distance we have come.
    Maybe it is not a great distance. But we are still in the 
process of becoming. And that is why I think it is important 
for the task force to do what we are doing. It is not perfect, 
it is not complete, but it is another step down a very, very 
long road to recognize all Americans, what they did and the 
contribution they made.
    Mr. Gonzalez. I couldn't agree with you more. We want to 
tell a story. I just want people to understand also why we tell 
the story.
    Thank you very much. I yield back.
    The Chairman. Thank you.
    Mr. McCarthy.
    Mr. McCarthy. One, I want to thank this task force. I will 
tell you the work that was done is tremendous, and just reading 
it moves me. And I will tell you, the education given--when you 
look at the payment to individuals, if you are not moved by 
that on this building--is tremendous.
    My question, I guess, drives from some of your answers that 
you were giving earlier. Now that you have made the 
recommendations, what do you envision for the task force on 
moving forward, on how you stay together or what you work on?
    Senator Lincoln. I am so sorry, Congressman.
    Mr. McCarthy. How do you envision the task force moving 
forward now?
    Senator Lincoln. Well, as Congressman Lewis mentioned, we 
will have to move forward in terms of ensuring that the 
resources are there to be able to do what we want to do.
    I also believe that not only should we have a real presence 
in the Visitors Center but that we also need to make sure that 
the actual--at least finding one of the actual places in the 
Capitol where the work was done by the slave labor should be 
recognized; and I hope that we can do that as well. Because I 
think that, again, it allows you to touch the stone and to look 
at the awesome pieces of stone that were quarried and how they 
may have been carried and, you know, the difficulty of that.
    I am excited as well about the educational aspect, and I 
want us to move forward with that.
    Maybe it is something that we can start and then continue 
to grow, as Congressman Lewis mentioned, particularly in terms 
of the interactive ability of kids, schoolchildren and others 
who want to learn. I just know, with twin boys that are 11 
years old, it is amazing what those interactive videos do for 
them in terms of learning--what the chairman was talking about, 
not just the history of it, but, you know, to really kind of 
jump inside the picture as it were and realize or at least 
begin to understand the oppressive heat that Congressman Lewis 
mentioned, the weight of those stones, that the stones that 
would be out there are stones left that are--yeah, you have 
read about those--I am sure that were in the quarry at the time 
that can be used open the front Capitol.
    When kids see those and they think somebody moved those 
with their hands--you know, all they are used to seeing are 
cranes these days. Not only is it awesome and an unbelievable 
thought, but there is educational tools there. I mean, the 
tools of the day were basic simple machines of physics. There 
is so much that kids can learn from this, both socially as well 
as scientifically and a whole host of other things; and I hope 
we won't stop at the brink, that we will continue to grow in 
our ability to use it as a learning tool.
    The Chairman. Thank you.
    Is there any chance that we can maybe dismiss this panel 
and direct questions to the next panel? If you want to direct 
this to this panel, we will have to bring them back or maybe 
you can submit them to the record.
    Mrs. Davis of California. I have a really quick question, 
And I think this is following up on what Congressman Watts has 
said, that the researchers, despite all the wonderful efforts--
and I want to thank each and every one of you for your 
tremendous contribution in bringing this forward to identify--I 
believe he mentioned only two of the slaves who were there, two 
of the individuals. And I am wondering if we have been able to 
find their decedents in any way or--and if we can bring that 
story in and if that research is continuing to be done as well.
    Senator Lincoln. Well, that was one of the things that I 
brought up, because I have been particularly interested--you 
know, the genealogy department at the Library of Congress is 
phenomenal, and they do a tremendous job, and our hope is that 
we can continue on that.
    I don't know. Some of the others on the panel--but I 
expressed that concern as well, that there is unbelievable 
tools in terms of genealogy and what can be done. And I don't 
know. I have just seen certain programs. I have recommended 
constituents over to the Library of Congress. They go up to--I 
think it is the third or fourth floor, wherever. They can get 
assistance. You can do it on line. There is a host of things.
    We want to encourage that is a part of it as well in terms 
of actually, as you said, finding not only decedents, not only 
those we know, but also from the records that exist perhaps 
finding more of those actual individuals that did participate 
in the work.
    Mrs. Davis of California. The other thing, just to suggest, 
is that it may be carried beyond the Capitol as well. Those of 
us who live on the Hill know that people who were living there, 
under what conditions, and I think that might be another story 
that would be interesting to tell, too, and we might be able to 
do it in some way that is not necessarily all in the Visitors 
Center but also outside.
    Thank you very much.
    Senator Lincoln. I am so sorry, Mr. Chairman. I am taking 
up all this time.
    The women Senators had dinner with the women Chief Justices 
or the justices of the court last night, and there was a lot of 
that discussion that came up about the history of the buildings 
around the Capitol at the turn of the century before and some 
of the measures that went to secure those for the buildings 
that we have, like the Supreme Court and the Library of 
Congress. So there is a lot of interesting things that we could 
get into and talk all day about, but I won't.
    Mrs. Davis of California. Thank you.
    The Chairman. Thank you, Senator.
    Mr. Davis of Alabama. Mr. Chairman, I will be extremely 
brief. Let me just make a couple of observations.
    One of them, Mr. Lewis, it is always good to see my fellow 
native Alabamian here. One of my highlights in the Congress was 
during the reauthorization of the Voting Rights Act debate in 
2005. Normally, as the Senator knows, Members don't tend to 
really hang around on the floor unless you are speaking or 
waiting to speak. I made the decision to sit down on the floor 
during the entire 2\1/2\ hour length of the debate. And for an 
hour of that time, I got to sit next to John Lewis. And getting 
to sit next to John Lewis during a debate on the Voting Rights 
Act remains and will continue to be one of the seminal events 
in my career.
    I want to make two quick observations. The first one, what 
is so helpful about this exercise, it should remind the 
American people that if you understand the contributions of 
African Americans, there is a seamless Web, a seamless 
connection between what African Americans have done and every 
seminal moment in this country's history, bar none. There is no 
part of the American story that is not built in part on the 
backs and sometimes literally on the backs and sweat and labor 
of people of African American descent, and it is helpful for us 
to know that.
    The last observation, I will make, Mr. Chairman, is this. 
Senator Lincoln, you can appreciate this; and, Congressman 
Lewis, you can appreciate it as a southerner. There are always 
a few people down south in our States that have this mindset 
that, well, you don't want to pick at these old bones; you 
don't want to spend too much time looking at what has been. I 
hope that those individuals realize that if you look at the 
story of this country, good and evil, noble and ignoble, it is 
ultimately a story of triumph, it is ultimately a story of 
ascent, and we are never running from exploring or examining 
history. We ought to embrace it.
    And I thank you all for being here.
    The Chairman. Thank you. Thank you all of you for the great 
work you have been doing, and thank you for the great work you 
will do. This hearing is in recess until we come back from our 
couple of votes, probably within about 45 minutes. Thank you.
    [Recess.]
    The Chairman. I am going to call the hearing back to order 
while we are waiting for some members to come back from the 
vote; and, without objection, the report of the task force will 
be printed in the record of the hearing today.
    I would like to welcome the panel in front of me: Mr. 
Lonnie Bunch, Director of the National Museum of African-
American History and Culture at the Smithsonian Institute; Mr. 
William C. Allen, Architectural Historian, Office of the 
Architect of the Capitol; and Ms. Felicia Bell, U.S. Capitol 
Historical Society. I welcome you to our hearing today.

   STATEMENTS OF LONNIE BUNCH, DIRECTOR, NATIONAL MUSEUM OF 
AFRICAN AMERICAN HISTORY AND CULTURE, SMITHSONIAN INSTITUTION; 
   WILLIAM C. ALLEN, ARCHITECTURAL HISTORIAN, OFFICE OF THE 
   ARCHITECT OF THE CAPITOL; AND FELICIA BELL, U.S. CAPITOL 
                       HISTORICAL SOCIETY

    The Chairman. I would ask, Mr. Bunch, if you would please 
start.

                   STATEMENT OF LONNIE BUNCH

    Mr. Bunch. Mr. Chairman, thank you for this opportunity to 
talk to the Committee on House Administration.
    Slavery and the history of the enslaved Africans is one of 
the most troubling and most difficult episodes in American 
history. It is a period that does not reflect well on America 
and its stated ideals of equality and liberty.
    In many ways, slavery is the last great unmentionable in 
American life, something that is better unspoken and forgotten; 
and yet we cannot escape the shadow of slavery just by ignoring 
that history.
    In his important novel, The Fire Next Time, James Baldwin 
wrote that, quote, history does not refer merely or even 
principally to the past. On the contrary, the great force of 
history comes from the fact that we carry it within us, are 
unconsciously controlled by it in many ways and that history is 
literally present in all that we do.
    If that is true, then it is important, rather, it is 
essential that America confront its slave past in order to help 
us understand the impact of slavery on us all and through this 
understanding find reconciliation and healing.
    As a historian, I have dedicated my whole life to helping 
people to remember, to remember our history not simply out of 
nostalgia, because history, especially African American 
history, matters. It provides tools and lessons that help 
people navigate contemporary life. Yet not everyone believes 
that this Nation should remember, especially when those 
memories include and are fundamentally shaped by slavery.
    So while my colleagues here are to talk about the history 
of slave labor and the act of the building of the Capitol, in 
this statement I want to explore why the interpretation and the 
preservation of the history of the enslaved is so important and 
so relevant for an America still struggling with the legacy and 
the impact of race and why it is so important for America to 
remember the contributions of the enslaved.
    I think you can tell a great deal about a country and about 
a people by what they deem important enough to remember, what 
they build monuments to celebrate, what graces the walls of 
their museums. But I think you can even tell more about a 
country by what it forgets, by what it chooses to omit. This 
desire to forget disappointments, moments of evil and great 
missteps is both natural and instructive. But I would suggest 
to you that it is often the essence of African American culture 
that is forgotten and downplayed. And yet, in some ways, it is 
the African American experience, the experience of slavery that 
is a clarion call for us to remember.
    A good example of this clarion call is the intersection of 
race and memory through the story of slavery. We must remember 
that for nearly 250 years slavery not only existed but it was 
the most dominant force in American life. Political clout and 
economic fortune depended upon the labor of slaves. Almost 
every aspect of American life, from business to religion, from 
culture to commerce, from foreign policy to westward expansion, 
was formed and shaped by the experience of slavery.
    American slavery was so dominant globally that 90 percent 
of the world's cotton was produced by slaves in the American 
South. In a way, we were the OPEC of the 19th century when it 
came to cotton. By 1860, the monetary value of slaves 
outweighed all the money invested in this country's railroads, 
banking and industry combined; and the most devastating war in 
American history was fought over the issue of slavery.
    And so therefore I was struck when I read into a survey 
that was taken in the early 1990s that assessed the public's 
understanding of slavery. The results were fascinating. Over 80 
percent of white respondents felt that slavery, even if it was 
important, was a history that mattered little to them. And even 
more troubling was that 56 percent of the African Americans 
surveyed expressed either little interest or some level of 
embarrassment about slavery.
    There is a great need, I would suggest, to help Americans 
understand that the history of slavery matters. It matters 
because so much of our complex and troubling struggle to define 
racial equality in this country has been shaped by slavery. 
Until we use the past to better understand the contemporary 
resonance of slavery we will never get to the heart of one of 
the central dilemmas in America and that is the relations among 
the races.
    But it is also important, I would suggest, to help America 
combat the notion of embarrassment. I am not ashamed of my 
slave ancestors. In fact, I am in awe of their ability, in 
spite of the cruelties of slavery, to maintain their culture, 
their sense of family, their humor and their humanity.
    I wish more people knew the words of a former slave who was 
asked during the Depression what will people remember about 
slavery. He said, they will remember that we were sold but not 
that we were strong. They will remember that we were bought but 
not that we were brave.
    Thus, it is crucially important that we remember slavery to 
draw inspiration, to help make America better. In many ways, 
slavery is a wonderful but unforgiving mirror that illuminates 
all the dark corners of the American experience. It is a mirror 
that reminds us of America's ideals and promise and how 
difficult it is to live up to those ideals. But it is also a 
mirror that makes those who are often invisible more visible. 
It is a mirror that gives voice to the anonymous. It is a 
mirror that challenges us to be better but to work to make our 
countries and communities better. If we use the mirror of 
slavery effectively, we will find common ground to allow us to 
struggle together as the abolitionists once did to make America 
better.
    Another reason why it is so important for us to remember 
slavery is that if we can illuminate the contributions of the 
enslaved who built the Capitol, because this will have a great 
impact nationally, by recognizing those who worked within our 
highest legislative body, Congress will stimulate, legitimize 
and encourage other projects to examine and understand the 
slave experience. I can only imagine an array of projects like 
the President House project in Philadelphia, the African burial 
ground that will find support and encouragement because 
Congress has recognized the important contributions of the 
enslaved.
    Ultimately, slavery is important because we must remember 
because it is the right thing to do. It is a powerful lens to 
explore issues of race, power, economics and social change. 
This history is powerful but too important to our ability to 
find reconciliation and healing to be ignored.
    America understands the importance of the struggle for 
freedom and equality only when they look through slavery. Where 
better than understanding our slave past can we help Americans 
wrestle with issues of morality, activism and racial change?
    Let me close simply by giving a quotation from a former 
slave who said, in 1939, when asked once again why we should 
remember, he said, though the slavery question is settled, its 
impact is not. The question will be with us always. It is in 
our politics. It is in our courts. It is on our highways. It is 
in our manner, and it is in our thoughts all the day, every 
day.
    What a gift Congress can give the American people by 
helping them to remember the enslaved by commemorating the 
contributions that slave labors made in the building of the 
Capitol all the day, every day.
    Thank you very much.
    The Chairman. Thank you, Mr. Bunch.
    [The statement of Mr. Bunch follows:]

    [GRAPHIC] [TIFF OMITTED] T1186A.024
    
    [GRAPHIC] [TIFF OMITTED] T1186A.025
    
    [GRAPHIC] [TIFF OMITTED] T1186A.026
    
    [GRAPHIC] [TIFF OMITTED] T1186A.027
    
    [GRAPHIC] [TIFF OMITTED] T1186A.028
    
    [GRAPHIC] [TIFF OMITTED] T1186A.029
    
    [GRAPHIC] [TIFF OMITTED] T1186A.030
    
    [GRAPHIC] [TIFF OMITTED] T1186A.031
    
    [GRAPHIC] [TIFF OMITTED] T1186A.032
    
    [GRAPHIC] [TIFF OMITTED] T1186A.033
    
    The Chairman. Mr. Allen.

                 STATEMENT OF WILLIAM C. ALLEN

    Mr. Allen. Thank you, Mr. Chairman.
    On December 8, 2004, Congress directed the Architect of the 
Capitol to study the contribution of slave laborers in the 
construction of the Capitol and to provide a report within 180 
days. As the agency's architectural historian and someone who 
has researched and written about Capitol history for many 
years, I was given the responsibility of preparing the report.
    I began my research at the National Archives, where the 
Capitol's earliest construction records are kept. From past 
experience, I knew that research into the records from the 
1790s would yield the information I needed. The records of the 
Office of Public Buildings contain the financial records of the 
Commissioners of the District of Columbia, who were the 
officials in charge of building the Capitol, the White House 
and other early government buildings in Washington. The ledgers 
list every expense incurred by the Commissioners, and it is 
there that one sees the names of hundreds of local residents 
receiving payments for the work of their slaves.
    From 1795 to 1801, there were 385 payments for slave labor 
for the Capitol. Rarely was the type of work enumerated or 
explained. Rather, the ledger recorded payments simply as 
``Negro hire.'' Payments for food, provisions and medical care 
were also recorded in these ledgers. In 1795, the Commissioners 
declared that they needed 100 slaves for the next year's work 
on construction projects throughout the city. The owners would 
be paid $60 a year, a sum of money that was raised to $70 in 
1797.
    In the course of my research, I discovered that renting 
slaves was a fairly common practice in the Potomac region. 
George Washington, for instance, sometimes found it necessary 
to rent slaves from his neighbors to help with harvests or 
spring house cleaning. Slaves with construction skills, such as 
carpenters and bricklayers, were highly sought after. For 
example, James Madison's father managed a sideline construction 
business based on his slaves sawing planks, making clapboards 
and building fences.
    Historical documents tell us that slaves worked at the 
quarries which supplied sandstone for the Capitol and White 
House. The principal contractor at Aquia Creek, Virginia, 
advertised for ``60 strong, active Negro men'' and promised 
their owners that ``they shall be well used and well fed.'' 
Another contractor, who was supplying foundation stone for the 
Capitol in 1793, was instructed to keep his hands at work from 
sunrise to sunset, ``especially the Negroes.''
    Another backbreaking job that seems to have been done 
mainly by slaves at the Capitol was sawing, both stone sawing 
and timber sawing. Sawing stone was slow work, with the steel 
blade making the cut with wet sand providing the abrasion. One 
of the Commissioners suggested purchasing slaves to work in the 
stone cutting business and to reward their work with freedom 
after 5 or 6 years of service. This idea, however, was not 
approved and the Commissioners continued to rent slaves 
throughout this period.
    While cutting stone was hard work, timber sawing was worse. 
After they were stripped of bark, logs were rolled over pits 
dug into the earth. A slave down in the pit would have one end 
of a 5- or a 7-foot-long whipsaw, and his partner on top would 
have the other end. Chalk lines guided each pass of the saw, 
which rained down a shower of sawdust on the top of the head of 
the hapless person in the pit. Wearing a hat or a veil offered 
the only protection available. Payment records indicate at the 
Archives that the rented slaves were able to earn their wages 
by sawing timber on Sundays or holidays. This was money paid 
directly to the slaves, not to their owners--a very rare 
instance of this happening--and they were thereby able to 
purchase little luxuries and perhaps even their freedom.
    The brick business was also heavily dependent on slave 
labor. Black women and children were used to mold the clay 
before it was stacked in kilns. Skilled slaves laid bricks, 
while their unskilled brethren delivered brick in hods carried 
up ladders on their shoulders. White bricklayers at the Capitol 
were paid $2.26 cents per 1,000 bricks laid, but the earnings 
of their employees or slaves was not recorded.
    Of all the construction work performed by slaves at the 
Capitol, perhaps carpentry was the most significant and 
ultimately the most influential. Slave carpenters were numerous 
on large plantations in the region. At Mt. Vernon, Washington 
had at least four slave carpenters making farm implements and 
building simple wooden structures and fences. Carpentry was a 
useful skill that was taught to slaves, passed down to 
succeeding generations and grew more marketable as the city of 
Washington developed. A good carpenter could learn a living 
long after public quarries had closed and pit sawers had been 
replaced by sawmills.
    It is no doubt true that slaves continued to contribute 
their skill and labor in the construction of the Capitol well 
after the 1790s. But with the advent of a private construction 
industry in 19th century Washington, their names and 
accomplishments recede into the shadows. Rarely is there a 
mention of slave labor in the Capitol's later period, but the 
earlier records illustrate the critical roles played by African 
American slaves in the building of our country's temple of 
liberty.
    The Chairman. Thank you, Mr. Allen.
    [The statement of Mr. Allen follows:]

    [GRAPHIC] [TIFF OMITTED] T1186A.034
    
    [GRAPHIC] [TIFF OMITTED] T1186A.035
    
    [GRAPHIC] [TIFF OMITTED] T1186A.036
    
    [GRAPHIC] [TIFF OMITTED] T1186A.037
    
    [GRAPHIC] [TIFF OMITTED] T1186A.038
    
    [GRAPHIC] [TIFF OMITTED] T1186A.039
    
    [GRAPHIC] [TIFF OMITTED] T1186A.040
    
    [GRAPHIC] [TIFF OMITTED] T1186A.041
    
    [GRAPHIC] [TIFF OMITTED] T1186A.042
    
    [GRAPHIC] [TIFF OMITTED] T1186A.043
    
    [GRAPHIC] [TIFF OMITTED] T1186A.044
    
    [GRAPHIC] [TIFF OMITTED] T1186A.045
    
    [GRAPHIC] [TIFF OMITTED] T1186A.046
    
    [GRAPHIC] [TIFF OMITTED] T1186A.047
    
    [GRAPHIC] [TIFF OMITTED] T1186A.048
    
    [GRAPHIC] [TIFF OMITTED] T1186A.049
    
    [GRAPHIC] [TIFF OMITTED] T1186A.050
    
    [GRAPHIC] [TIFF OMITTED] T1186A.051
    
    [GRAPHIC] [TIFF OMITTED] T1186A.052
    
    [GRAPHIC] [TIFF OMITTED] T1186A.053
    
    [GRAPHIC] [TIFF OMITTED] T1186A.054
    
    [GRAPHIC] [TIFF OMITTED] T1186A.055
    
    [GRAPHIC] [TIFF OMITTED] T1186A.056
    
    [GRAPHIC] [TIFF OMITTED] T1186A.057
    
    [GRAPHIC] [TIFF OMITTED] T1186A.058
    
    [GRAPHIC] [TIFF OMITTED] T1186A.059
    
    [GRAPHIC] [TIFF OMITTED] T1186A.060
    
    [GRAPHIC] [TIFF OMITTED] T1186A.061
    
    [GRAPHIC] [TIFF OMITTED] T1186A.062
    
    [GRAPHIC] [TIFF OMITTED] T1186A.063
    
    [GRAPHIC] [TIFF OMITTED] T1186A.064
    
    [GRAPHIC] [TIFF OMITTED] T1186A.065
    
    The Chairman. Ms. Bell?

                   STATEMENT OF FELICIA BELL

    Ms. Bell. Thank you, Mr. Chairman. Good afternoon.
    I would like to thank the Committee on House Administration 
for hearing my statement regarding the enslaved and free black 
labor used to construct the United States Capitol. My name is 
Felicia Bell, and I am the Director of Education and Outreach 
at the United States Capitol Historical Society. I am also a 
doctoral candidate in United States history in the Department 
of History at Howard University and have researched this topic 
over the last 5 years. I am overjoyed today to testify before 
this congressional committee and for the congressional record 
on behalf of those enslaved and freed who labored at the 
Capitol.
    I think the history of the United States Capitol is closely 
linked to the lives of all Americans. It symbolizes the center 
of the American ideals of freedom and opportunity. Not only is 
the Capitol the seat of representative government, it is where 
democracy (insofar as America is concerned) lives. Yet in all 
of its neoclassical architectural splendor, impressive artwork, 
and intriguing history, one key component is conspicuously 
missing from the vast body of historical literature about the 
Capitol. That is the role of people of African descent in its 
construction.
    During the initial construction of the Capitol in the 
1790s, the Commissioners of the District of Columbia generally 
went into contract for labor with local owners of enslaved 
people. The enslaved worked alongside free blacks, European 
immigrants, and white Americans. Some of the hired enslaved and 
free black men were skilled in building trades such as sawing, 
carpentry, brick making, brick masonry, plastering, or 
blacksmithing, while others quarried stone, cleared land, or 
hauled materials.
    The number of these men laboring varied throughout the 
years and according to their tasks. For instance, in 1794, the 
Commissioners claimed there were anywhere from 8 or 10 or 30 or 
40 enslaved laborers at the quarries and, in the same year, 
more than 800 mechanics or laborers employed on improving the 
Federal city. And according to time sheets and payrolls in the 
National Archives, these men always labored under the 
supervision of an ``overseer''.
    All of those men, like all of us here today, have a story. 
Back then, they were viewed as nothing more than property or 
chattel providing a service. Today, let us share the story of 
the contribution of these human beings to our Nation not only 
with fellow Americans but people of all nations.
    Indeed, one of the more triumphant stories to arise from 
the oppressive Capitol construction site is the story of Philip 
Reid. Reid was an enslaved man who was purchased at a young age 
in Charleston, South Carolina by Clark Mills, a renowned 
American sculpture. According to Mills, he purchased Reid 
because he was smart and had evident talent for working in a 
foundry.
    After the plaster model of the Statue of Freedom arrived in 
the Federal city in March 1859, Mills went into contract with 
the Commissioners to cast the bronze onto the Statue of Freedom 
in April of 1860. While the government paid Mills for his 
service and supplies, Philip Reid had a significant role in the 
casting process. Reid's payment receipt states that he received 
the sum of $41.25 for his services on Sundays between July 1, 
1860 and May 16, 1861, for ``keeping up fires under the 
molds''.
    Perhaps the hardest aspect of the trade is the molding 
skills. Not only does the mold need to be properly constructed, 
it must be constantly heating or the casting will be inferior. 
Laboring in a 19th-century foundry was extremely hazardous, 
hot, and filthy. While ``keeping up fires under the molds,'' 
Philip Reid most likely inhaled ash, coal dust, and sand. He 
would have bathed in his own sweat, particularly during the 
summer months, as molten bronze reaches temperatures of 2,000-
plus degrees.
    Philip Reid was later freed by the District of Columbia 
Emancipation Act, which was implemented by President Abraham 
Lincoln on April 16, 1862. The Act not only ended slavery in 
the district, but it uniquely provided loyal unionist owners of 
enslaved people compensation for their loss of property. Clark 
Mills was included in this group and according to his petition, 
listed Philip Reid at $1,500. Mills, like other petitioners, 
used words like ``sound'', ``healthy'', ``smart'', and 
``stout'' when describing their formally enslaved and listed 
them at the highest value in order to receive the most 
compensation the law allowed.
    The Statue of Freedom was installed atop the Capitol dome 
on December 3, 1863, over a year after Philip Reid was freed. 
Records do not document whether he was present at the moment of 
this occasion.
    Today, the Capitol is one of the most recognizable 
buildings in the world. Ironically, it stands as a reminder 
that freedom and democracy in America was predicated on the 
enslavement of Africans. The Capitol has continuously remained 
open to the public and thousands of its visitors receive guided 
tours each year. Yet information about people of African 
descent who contributed to the development of this Nation, 
particularly the enslaved Africans who constructed the Capitol, 
is seldom a subject of discussion on tours of the building. 
Sadly, African Americans are not seen in much of the artwork on 
the walls of the Capitol.
    It is the opinion of this historian that all groups should 
be included in the written history of the Capitol. It is an 
American icon, and the contributions of all Americans ought to 
be a part of its historical interpretation to the public. Mr. 
Chairman, thank you for your time.
    The Chairman. Thank you, and I agree with you.
    Ms. Bell. Thank you.
    [The statement of Ms. Bell follows:]

    [GRAPHIC] [TIFF OMITTED] T1186A.066
    
    [GRAPHIC] [TIFF OMITTED] T1186A.067
    
    [GRAPHIC] [TIFF OMITTED] T1186A.068
    
    [GRAPHIC] [TIFF OMITTED] T1186A.069
    
    [GRAPHIC] [TIFF OMITTED] T1186A.070
    
    [GRAPHIC] [TIFF OMITTED] T1186A.071
    
    [GRAPHIC] [TIFF OMITTED] T1186A.072
    
    [GRAPHIC] [TIFF OMITTED] T1186A.073
    
    [GRAPHIC] [TIFF OMITTED] T1186A.074
    
    [GRAPHIC] [TIFF OMITTED] T1186A.075
    
    The Chairman. How many slaves were there that worked on the 
Capitol? Do you have an idea?
    Mr. Allen. It is impossible to look at the records and know 
exactly where the slaves were working. We know that they were 
working in the Federal city. We know, in the 1790s, usually 
they were calling for 100 slaves to be rented for the next 
year's work. So that gives us an idea.
    Now, there were also slaves working at the quarries for 
contractors who were contributing there. There were probably 
other contractors, too. So it is not precisely known, but 
certainly in the--over 100, I would say.
    The Chairman. And the only time they actually got paid was 
the Saturday or Sunday.
    Mr. Allen. Not on Saturday. They were working--work was 
from sunup to sundown Monday through Saturday.
    The Chairman. That is when the masters got paid for their 
work.
    Mr. Allen. That is when the masters got paid.
    The Chairman. And they would get paid only if they worked 
on a Sunday.
    Mr. Allen. They worked on Sunday--they had some limited 
holidays, like the Monday after Easter. They worked that day.
    The Chairman. They would get paid some.
    Mr. Allen. They would get paid.
    The Chairman. I am sure that you are talking with the task 
force, the panel that was before you with ideas and giving 
recommendations. What in your opinion do you think that we can 
actually do to raise the awareness? What would be a good way to 
raise the awareness other than--again, I encourage you, Ms. 
Bell, the tour guides. We need to educate them a little bit 
more and let them know what they show the public and include, 
you know, the slaves with the contributions that they made. Are 
there other recommendations for awareness that you think we can 
do or they could do? Have you been talking to them? I am sure 
you have, I hope.
    Mr. Bunch. Well, I think there are several things. I mean, 
I think, first of all, to recognize that this is such an 
important story, that--I know that the Smithsonian is 
interested in helping to make it well known to the audiences 
that come to our buildings through our Web sites and the like. 
And I think what I am hearing is--people are talking about this 
around the country--is that there are many institutions, like 
the Underground Railroad Museum in Cincinnati and those in 
Memphis and others, who really want to see this as part of a 
conversation about the possibility of change in America. And so 
I think that in some ways, this has a chance to do the 
wonderful job it will do here in Washington. But I think it 
will stimulate other conversations around the country to help 
make sure this is a story that gets beyond the Beltway.
    The Chairman. Maybe help them tell their story.
    Mr. Bunch. Exactly.
    The Chairman. You mentioned Philadelphia, where I am from. 
You mentioned the President's house. Did you see that? Were you 
there?
    Mr. Bunch. Yes. I was just there last weekend.
    The Chairman. We--myself and my colleague Congressman 
Fattah were instrumental in getting funding for the historical 
excavation there. We gave them X amount of dollars, and do you 
know they found one foundation; they went a little deeper, and 
they found the second foundation that actually had the exact 
footprint of the President's house.
    Mr. Bunch. I didn't know that.
    The Chairman. Yes, it was a second foundation. And they 
actually had a well, and they moved the well because Washington 
was probably--they say was the first one to have the Oval 
Office. It was all in glass, and the well was right there, and 
he didn't want to see--he didn't want his visitors to see the 
slaves come out from the well. They actually moved the well for 
that.
    And the point I am making is, it was so moving to me even 
that when I went there, and I looked at it, and I saw--because 
a friend told me, you need to go just to check up on them, and 
find them some appropriations, and help with what they are 
doing. I was moved so much by it that I brought my 
grandchildren back. And one was only 4 years old, but I was 
trying to explain to him, and he was kind of getting it, but he 
couldn't understand the fact that we could actually have slaves 
and have people do these things.
    It was amazing, and it was really moving, and that in 
itself--we could be an example and raise awareness for other 
State capitals and other buildings. I think that would be a 
really good thing to happen.
    Mr. Bunch. I agree very much, sir.
    The Chairman. And it was moving. If anybody gets a change--
well, they covered it up now. We are trying to get more money, 
and we are going to try to put a glass ceiling. It was just a 
little wooden platform, maybe no larger than this room, that 
you can look down and see the actual footings. And more people 
went to see that than the Liberty Bell or anything else. That 
is how moving that was.
    So that is something we are figuring out how to get more 
money and try to encase that, whether it be glass or whatever 
you can do to encase it. The foundation has got to be coated 
because it would disintegrate through time, because the air 
hits it now, so it would disintegrate. So we are doing that, 
and that is something that is really absolutely moving. And we 
have to fix that, preserve that, let other people see that and 
raise the awareness of what happened there.
    And, again, I think we could take that example and let the 
Capitol be the beacon, because there are more people coming to 
the Capitol than are coming to Philadelphia.
    So I thank you for your participation. I appreciate all 
your participation with the task force and to keep this 
awareness up, and I am sure that we will do this also in this 
committee here. Thank you. Thank you very much.
    This hearing now is adjourned. Thank you.
    [Whereupon, at 3:30 p.m., the committee was adjourned.]

</pre></body></html>
